<html>
<title> - REAUTHORIZING THE VOTING RIGHTS ACT'S TEMPORARY PROVISIONS: POLICY PERSPECTIVES AND VIEWS FROM THE FIELD</title>
<body><pre>[Senate Hearing 109-822]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-822
 
  REAUTHORIZING THE VOTING RIGHTS ACT'S TEMPORARY PROVISIONS: POLICY 
                 PERSPECTIVES AND VIEWS FROM THE FIELD

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON THE CONSTITUTION,
                    CIVIL RIGHTS AND PROPERTY RIGHTS

                                 of the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 21, 2006

                               __________

                          Serial No. J-109-88

                               __________

         Printed for the use of the Committee on the Judiciary



                    U.S. GOVERNMENT PRINTING OFFICE
31-269                      WASHINGTON : 2007
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                       COMMITTEE ON THE JUDICIARY

                 ARLEN SPECTER, Pennsylvania, Chairman
ORRIN G. HATCH, Utah                 PATRICK J. LEAHY, Vermont
CHARLES E. GRASSLEY, Iowa            EDWARD M. KENNEDY, Massachusetts
JON KYL, Arizona                     JOSEPH R. BIDEN, Jr., Delaware
MIKE DeWINE, Ohio                    HERBERT KOHL, Wisconsin
JEFF SESSIONS, Alabama               DIANNE FEINSTEIN, California
LINDSEY O. GRAHAM, South Carolina    RUSSELL D. FEINGOLD, Wisconsin
JOHN CORNYN, Texas                   CHARLES E. SCHUMER, New York
SAM BROWNBACK, Kansas                RICHARD J. DURBIN, Illinois
TOM COBURN, Oklahoma
           Michael O'Neill, Chief Counsel and Staff Director
      Bruce A. Cohen, Democratic Chief Counsel and Staff Director
                                 ------                                

   Subcommittee on the Constitution, Civil Rights and Property Rights

                    SAM BROWNBACK, Kansas, Chairman
ARLEN SPECTER, Pennsylvania          RUSSELL D. FEINGOLD, Wisconsin
LINDSEY O. GRAHAM, South Carolina    EDWARD M. KENNEDY, Massachusetts
JOHN CORNYN, Texas                   DIANNE FEINSTEIN, California
TOM COBURN, Oklahoma                 RICHARD J. DURBIN, Illinois
                    Ajit Pai, Majority Chief Counsel
               Robert F. Schiff, Democratic Chief Counsel


                            C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Brownback, Hon. Sam, a U.S. Senator from the State of Kansas.....     1
Cornyn, Hon. John, a U.S. Senator from the State of Texas........     5
Feingold, Hon. Russell D., a U.S. Senator from the State of 
  Wisconsin......................................................     4
Kennedy, Hon. Edward M., a U.S. Senator from the State of 
  Massachusetts..................................................     2
Leahy, Hon. Patrick J., a U.S. Senator from the State of Vermont, 
  prepared statement.............................................   220

                               WITNESSES

Adegbile, Debo, Associate Director of Litigation, NAACP Legal 
  Defense and Educational Fund, Inc., New York, New York.........     6
Canon, David, Professor, Department of Political Science, 
  University of Wisconsin, Madison, Wisconsin....................    15
Park, John J., Jr., Assistant Attorney General, Office of the 
  Attorney General, Montgomery, Alabama..........................    13
Reynolds Gerald A., Chairman, U.S. Commission on Civil Rights, 
  Assistant General Counsel, Kansas City Power & Light Company, 
  Kansas City, Missouri..........................................     9
Swain, Carol, Professor of Political Science and Professor of 
  Law, Vanderbilt University, Nashville, Tennessee...............    18
Wright, Donald M., General Counsel, North Carolina State Board of 
  Elections, Durham, North Carolina..............................    11

                         QUESTIONS AND ANSWERS

Responses of Debo Adegbile to questions submitted by Senators 
  Kennedy, Leahy, Cornyn, and Coburn.............................    29
Responses of David Canon to questions submitted by Senators 
  Coburn, Leahy, Cornyn and Kennedy..............................    82
Responses of Gerald Reynolds to questions submitted by Senators 
  Coburn and Cornyn..............................................   104
Responses of Carol Swain to questions submitted by Senators 
  Coburn and Cornyn..............................................   112
Responses of Donald Wright to questions submitted by Senators 
  Coburn, Cornyn, Kennedy, and Leahy.............................   115
Questions submitted by Senators Cornyn, Sessions, and Coburn to 
  John J. Park, Jr. (Note: Responses to questions were not 
  received as of the time of printing, March 15, 2007)...........   126

                       SUBMISSIONS FOR THE RECORD

Adegbile, Debo, Associate Director of Litigation, NAACP Legal 
  Defense and Educational Fund, Inc., New York, New York, 
  statement......................................................   129
American Constitution Society for Law and Policy, Pamela S. 
  Karlan, Washington, D.C........................................   154
Atlanta Journal-Constitution, Lynn Westmoreland, May 29, 2006, 
  article........................................................   177
Blum, Edward, American Enterprise Institute, May 2, 2006, article   178
Canon, David, Professor, Department of Political Science, 
  University of Wisconsin, Madison, Wisconsin, statement.........   180
Fitzpatrick, Duross, Senior Judge, U.S. District Court for the 
  Middle District of Georgia, May 31, 2006, letter...............   211
Keyssar, Alexander, Matthew W. Stirling, Jr. Professor of History 
  and Social Policy, Chair, Democratic Institutions and Politics, 
  Kennedy School of Government, Harvard University, Cambridge, 
  Massachusetts, statement.......................................   212
National Council on Disability, Lex Frieden, Chairperson, 
  Washington, D.C., letter.......................................   222
Park, John J., Jr., Assistant Attorney General, Office of the 
  Attorney General, Montgomery, Alabama, statement...............   225
Pettus, Emily Wagster, Associated Press, article.................   243
Republican Members of the U.S. House of Representatives, joint 
  letter.........................................................   246
Reynolds, Gerald A., Chairman, U.S. Commission on Civil Rights, 
  Assistant General Counsel, Kansas City Power & Light Company, 
  Kansas City, Missouri, statement...............................   252
Rosenberg, Steven L., County Attorney, County of Augusta, Verona, 
  Virginia, letter...............................................   265
Swain, Carol, Professor of Political Science and Professor of 
  Law, Vanderbilt University, Nashville, Tennessee, statement and 
  attachments....................................................   267
Wall Street Journal, June 12, 2006, article......................   307
Wright, Donald M., General Counsel, North Carolina State Board of 
  Elections, Durham, North Carolina, statement...................   309


  REAUTHORIZING THE VOTING RIGHTS ACT'S TEMPORARY PROVISIONS: POLICY 
                 PERSPECTIVES AND VIEWS FROM THE FIELD

                              ----------                              


                        WEDNESDAY, JUNE 21, 2006

                                       U.S. Senate,
Subcommittee on the Constitution, Civil Rights and Property 
                        Rights, Committee on the Judiciary,
                                                    Washington, DC.
    The hearing was convened, pursuant to notice, at 2:07 p.m., 
in room SD-226, Dirksen Senate Office Building, Hon. Sam 
Brownback (Chairman of the Subcommittee), presiding.
    Present: Senators Sessions, Cornyn, Coburn, Kennedy, and 
Feingold.

 OPENING STATEMENT OF HON. SAM BROWNBACK, A U.S. SENATOR FROM 
                      THE STATE OF KANSAS

    Chairman Brownback. Good afternoon. I hope this hearing 
will provide an opportunity for us to hear from people whose 
work requires them to think about and to implement the 
provisions of the Voting Rights Act on a regular basis. This is 
an historic piece of legislation, a very important piece of 
legislation.
    It is always helpful here in the Senate to hear from the 
people who are affected by the laws we pass. I hope each of you 
will share your thoughts on the necessity and practicality of 
reauthorizing certain key provisions of the Voting Rights Act 
which are set to expire in August of 2007.
    Virtually no right is more important than the right to 
vote. It is, quite literally, the bedroom for the 
representative democracy we enjoy today. We must enable 
American citizens to fully participate in the political process 
if we are truly to be a government of, by, and for the people.
    Out of a strong desire to achieve this goal, a bipartisan 
majority in Congress passed, and President Johnson signed, the 
Voting Rights Act in 1965. The aim of the Act two generations 
ago was to fulfill the democratic promise of the Civil War 
amendments to the Constitution, one left unmet for a century 
after that terrible war had ended.
    The civil rights landscape has greatly improved in this 
country since 1965, thanks in great part to the Voting Rights 
Act. The Act has resulted in a tremendous increase in the 
ability of minority citizens to fully and fairly participate in 
our political system, both as voters and as candidates.
    Over the years, Congress has made adjustments to the 
legislation to identify and address current conditions, so it 
is appropriate that we do our part in the 21st century to 
assess and improve the Act.
    The Voting Rights Act reauthorization bill currently 
pending before the Senate, S. 2703, recognizes the achievements 
of three other champions of the Civil Rights era: Fannie Lou 
Hamer, Rosa Parks, and Coretta Scott King; legendary names, 
legendary figures. I believe we have a responsibility to carry 
on the work of these great Americans.
    To that end, I have co-sponsored this important legislation 
which reauthorizes three basic parts of the Act which are set 
to expire next year. The first provision, which will expire in 
2007, is Section 5.
    This section provides that certain jurisdictions that had a 
history of discriminatory voting practices must obtain pre-
clearance from the Department of Justice before making any 
change in their voting procedures.
    Also set to expire are Sections 203 and 4F4. Section 203 
applies to jurisdictions in which a certain percentage of the 
voting aged population is deemed to consist of minority 
language speakers. It requires that such jurisdictions provide 
all voting notices and materials in these minority languages, 
as well as in English.
    Finally, Sections 6 through 9, which authorizes the 
Department of Justice to appoint examiners and observers to 
monitor election activities in certain jurisdictions, are set 
to expire.
    The importance of the Voting Rights Act and the need for 
Congress to exercise due diligence in reauthorizing it cannot 
be under-estimated. We must proceed carefully to ensure the Act 
is properly reauthorized so that it both prevents civil rights 
violations and does not permanently punish jurisdictions that 
have rectified past discriminatory practices.
    As with prior extensions of the Voting Rights Act, Congress 
must ensure that the Act's provisions are congruent and 
proportionate to the identified harms, for this is the 
constitutional standard the Act must meet when it is evaluated 
by the Supreme Court.
    I hope that our witnesses today will discuss the continuing 
need for this legislation, identifying possible improvements, 
and outline the steps we can take to ensure that every 
American--every American--has the right to participate in the 
voting process.
    I am delighted my colleagues are joining us today, and I 
turn the floor to Senator Kennedy.

 STATEMENT OF HON. EDWARD M. KENNEDY, A U.S. SENATOR FROM THE 
                     STATE OF MASSACHUSETTS

    Senator Kennedy. Thank you very much, Senator Brownback, 
for chairing these hearings today. Our thanks to the Chairman 
of our Committee for continuing our committee's focus on the 
reauthorization of the Voting Rights Act.
    It was important to take time to have these series of 
hearings to establish a strong record for reauthorizing this 
Act, and we have done that. I hope we can vote this bill out of 
Committee before the 4th of July recess.
    During the hearings in recent weeks, arguments have been 
made for and against reauthorization. It has been argued that 
the trigger formula for Section 5 coverage is outdated, but the 
evidence presented to the Committee demonstrates that 
discrimination in voting persists in the jurisdictions covered 
by the Act, Mississippi as an example.
    The Justice Department has objected to 120 voting changes 
in Mississippi since the Section 5 was last authorized in 1982. 
This is roughly double the number of objections for the period 
before 1982.
    The Committee heard similar testimony about recent 
discriminatory voting changes in Alabama, South Carolina, North 
Carolina, and Texas.
    University of North Carolina, Professor Nida Earles, 
testified that the Department of Justice had made a total of 
682 Section 5 objections in covered jurisdictions between 1982 
and 2004, as compared to only 481 objections prior to 1982. In 
short, covered jurisdictions continue to propose discriminatory 
voting changes that can only be prevented through the pre-
clearance process.
    Behind these statistics are the stories of the voters who 
were able to participate in the voting process because the 
Voting Rights Act protects their constitutional right to do so.
    For example, in 2001, the town of Kilmichael, Mississippi 
canceled its elections just 3 weeks before election day. The 
Bush Justice Department objected to the cancellation, finding 
that the town failed to establish that its actions were not 
motivated by the discriminatory purpose from electing 
candidates of their choice.
    The town had recently become majority African-American, and 
for the first time in its history several African-American 
candidates had a good chance of winning elected office.
    Section 5 prevented this discriminatory change from being 
implemented, and as a result, three African-American candidates 
were elected to the Board of Aldermen, and an African-American 
was selected mayor of Kilmichael for the first time.
    The fact the number of Section 5 objections is only a small 
percentage of total submissions should not be surprising. 
Jurisdictions take Section 5 into consideration when adopting 
voting changes, and many day-to-day changes are non-
controversial. What should surprise and concern us is the fact 
that there continue to be objections and voting changes like 
the one in Kilmichael.
    It has also been argued that the Section 5 coverage formula 
is both over-and under-inclusive. The Act addresses that 
problem by permitting jurisdictions where Federal oversight is 
no longer warranted to bail out from coverage under Section 5.
    We have a letter from one of the jurisdictions that has 
taken advantage of the bail-out process, explaining that it did 
not find that process to be onerous. So far, every jurisdiction 
that has sought a bail-out has succeeded.
    For jurisdictions that should be covered but are not, the 
Act contains a mechanism by which a court may order a non-
covered jurisdiction found to have violated the Fourteenth and 
Fifteenth Amendments to obtain Section 5 pre-clearance for its 
voting changes. As a result, the Act's pre-clearance 
requirement applies only to jurisdictions for which there is 
need for such oversight.
    Some question why Section 203 is needed if naturalized 
citizens must learn English to become citizens. But as we 
learned from the hearing on Section 203, this rhetoric is 
misleading and unfair. Section 203 does not just help 
naturalized citizens, it also helps U.S. citizens born in 
Puerto Rico, on Native American reservations, and in Alaskan 
villages. We have an obligation to help these Americans to cast 
a meaningful and effective vote.
    We also heard testimony that English-language programs are 
heavily over-subscribed, forcing those who wish to improve 
their English to remain on waiting lists for years. Mr. 
Chairman, in my city of Boston it is two years now, and in 
cities across the country there is an equal amount of time to 
be able to participate.
    It is rather tragic that the Appropriations Committee cut 
back on the English-language training programs, this when we 
have been trying to deal both with the immigration issues, as 
well as the voting rights issue. It seems to me to have failed 
to recognize important priorities.
    These programs in the 203 are important because 
understanding instructions and the election process require 
more than a basic understanding of English. We went through a 
series of referenda that were on a number of different kind of 
ballots, and the complexity of some of these referenda, and we 
want people to be able to cast with informed judgments on these 
issues.
    We cannot complain about naturalized citizens not learning 
English when we strip English-language programs' funding. We 
have conducted well-balanced hearings, different views have 
been presented, and the record is strong for reauthorization. 
It is time to move the bill forward.
    I thank the Chairman.
    Chairman Brownback. Thank you, Senator Kennedy.
    Senator Feingold?

STATEMENT OF HON. RUSSELL D. FEINGOLD, A U.S. SENATOR FROM THE 
                       STATE OF WISCONSIN

    Senator Feingold. Thank you, Mr. Chairman. I will have to 
leave in a few minutes because of the debate on the floor 
concerning Iraq, but I really do want to thank my friend, 
Senator Kennedy, for agreeing to serve as the Ranking Member 
for this hearing. He is about the busiest member of the Senate, 
so I do appreciate it.
    Thanks, also, to Senator Brownback, the Chairman of this 
subcommittee. Let me just say, very briefly, that those who 
work so tirelessly to ensure the Volting Rights Act's enactment 
and reauthorization should take pride in the great success of 
the Voting Rights Act. We have seen the increased participation 
in elections by minority voters and the enhanced ability of 
minority voters to elect candidates of their choice.
    But I think Ted Shaw put it best when he stated in his 
testimony in an earlier hearing, ``The Voting Rights Act was 
drafted to rid the country of racial discrimination, not simply 
to reduce racial discrimination in voting to what some view as 
a tolerable level.''
    That is why there is a continued need for the pre-clearance 
and minority language assistance provisions of the Act. I 
believe the cases were made quite powerfully for Chairman 
Specter's reauthorization legislation.
    The Judiciary Committee has heard detailed testimony and 
several reports have been entered into the record documenting 
continued violations and attempts to violate the Voting Rights 
Act in covered areas.
    We know that Section 5 of the Act serves as a powerful 
deterrent to prevent violations in areas of the country with a 
history of systemic discrimination at the polls. We have heard 
about the impact of Section 203 and how it has empowered many 
voters with limited English proficiency to participate in our 
democratic process.
    I have been very impressed by the testimony of legal 
experts, such as Professor Pam Carlin, who presented strong 
arguments for the constitutionality of the Act. I do appreciate 
the deliberate and thorough manner with which the Committee is 
proceeding and I look forward to the committee's considering 
the Chairman's reauthorization bill in the coming weeks.
    Finally, let me thank the witnesses for being with us 
today. In particular, I want to welcome Professor David Canon 
from my alma mater, the University of Wisconsin, Madison.
    Thank you, Mr. Chairman.
    Chairman Brownback. Thank you, Senator Feingold.
    Senator Cornyn?

STATEMENT OF HON. JOHN CORNYN, A U.S. SENATOR FROM THE STATE OF 
                             TEXAS

    Senator Cornyn. Well, thanks, Senator Brownback, for 
chairing this important hearing. This is the seventh in a 
series of hearings in the U.S. Senate focused on 
reauthorization of expiring provisions of the Voting Rights 
Act.
    I am encouraged that we continue to study this enormously 
important and complex issue because I know we all will agree 
that the Voting Rights Act has been one of the most significant 
pieces of legislation passed in our Nation's history to ensure 
full political participation of individuals who, in the past, 
sadly, and which is a national scar, have been disenfranchised.
    But it is imperative that we, in order to increase the 
likelihood that the U.S. Supreme Court, when it reviews our 
work, can ensure that we have done everything within our power 
to make sure that we can meet the standards that the Supreme 
Court has set out before, so that the legislation will 
ultimately operate as Congress has intended.
    We have a distinguished panel, obviously, and I will cutoff 
my remarks here so we can hear from them. But let me just say, 
in conclusion, I am delighted to see the Chairman of the U.S. 
Commission on Civil Rights with us today, Jerry Reynolds. In 
the past, the Commission has been an integral part of our 
analysis, and I look forward to hearing from him, as well as 
the other panel members.
    Thank you very much.
    Chairman Brownback. Thank you, Senator Cornyn.
    I will introduce our panel now. First, is Debo Adegbile, 
Associate Director of Litigation for the NAACP Legal Defense 
and Education Fund. He works with direct litigation over 
CNAACP's legal programs and is actively engaged in voting 
rights litigation and advocacy.
    Next, we will hear from Gerald Reynolds, Chairman of the 
U.S. Civil Commission. Mr. Reynolds previously served as Deputy 
Associate Attorney General, U.S. Department of Justice, and 
Assistant Secretary of Education with the Office of Civil 
Rights. Mr. Reynolds has also served as president for the 
Center for New Black Leadership.
    The third witness is Don Wright, General Counsel for the 
North Carolina Board of Elections, a position he has held since 
2000. He is active in the Election Center, the Nationwide 
Association of Election Administrators, and has served as an 
instructor for the center.
    We will then have Jack Park, who is here from the Office of 
the Attorney General in Montgomery, Alabama. Mr. Park graduated 
from Yale Law School in 1980 and has spent the last 11 years 
serving as an Assistant Attorney General and Deputy Attorney 
General. His practice focused on voting rights and First 
Amendment issues.
    Our fifth witness is Professor David Canon, Professor of 
Political Science, University of Wisconsin. He is the author of 
Race, Redistricting and Representation: The Unintended 
Consequences of Black Majority Districts, which earned him the 
American Political Sciences Association's Richard F. Finno 
prize for the best book published on legislative politics in 
1999.
    Our final witness is Professor Carol Swain. She is 
Professor of Political Science and Law at Vanderbilt. Professor 
Swain earned her Ph.D. from the University of North Carolina, 
Chapel Hill, and received her MLS from Yale Law School.
    She is the founder of the Veritas Institute, a nonprofit 
organization dedicated to promoting justice and reconciliation 
amongst people of different races, ethnicities, faith, 
traditions, and nations.
    It is an excellent panel. We will take all of your written 
testimony into the record as if presented. You are welcome to 
summarize. I am going to run the time clock at 6 minutes, if we 
could, to give you an idea. If you could stay around that, that 
would be great. Then we could get to questions and answers, if 
that is workable with you. I would appreciate it if you could 
run it that way.
    Mr. Adegbile, please.

 STATEMENT OF DEBO ADEGBILE, ASSOCIATE DIRECTOR OF LITIGATION, 
  NAACP LEGAL DEFENSE AND EDUCATIONAL FUND, INC., NEW YORK, NY

    Mr. Adegbile. Thank you, Senator.
    Today I will offer a perspective on the view from the 
field, based largely on our experience in Louisiana. My written 
testimony speaks more broadly about our experience in other 
places, but I think that the view from Louisiana is 
particularly apt at the time as the Senate considers renewal of 
Section 5.
    I also want to touch briefly upon the operation of Section 
5 as a deterrent. You have heard a great deal about it, but I 
think some recent contributions to the record illuminate some 
of those pieces in ways that are important.
    Finally, I will offer some policy perspectives and speak 
briefly to some of the issues surrounding the coverage formula, 
as this Committee has discussed those issues in detail.
    The view from Louisiana is very instructive. I want to 
focus on the experience with respect to the Louisiana House of 
Representatives, the State legislative House, the lower House 
of the State legislature, because in some sense it tells the 
story of the Voting Rights Act.
    We recently celebrated 40 years of the existence of the 
Voting Rights Act, and it is fairly remarkable, but it is true 
when I say that every single House redistricting plan for the 
Louisiana House of Representatives has initially been met by an 
objection from the Department of Justice.
    It began in 1971, and that process has continued through 
the last round of redistricting. Those objections have touched 
upon wide parts of the State. They have not only been 
concentrated in one part of the State, they have touched upon 
multiple areas of dilution and retrogression. They have taken 
the nature of evidence of intentional discrimination and 
discriminatory effects.
    The important thing to think about as we look at those 
objections in each of the decades that followed the renewal of 
the Voting Rights Act, is that but for Section 5, those voting 
changes, those redistricting plans would have gone into effect 
and would have served to minimize the opportunity of African-
Americans in a State with a long and well-documented history of 
discrimination to participate in the political process.
    They would have been left to try to find lawyers to bring 
complex Section 2 cases, and all the while they would have 
suffered from discrimination that the legislative redistricting 
plans were either designed to implement, or had the effect of 
implementing.
    The experience in Louisiana is not exclusively limited to 
the Louisiana House, but I think because you can trace the line 
through those objections it is important.
    I will say just a word about a case I litigated, which was 
the last objection, which came in the form of a declaratory 
judgment action right here in Washington, DC. That case was 
remarkable, for a lot of reasons.
    First, the State tried to eliminate in toto an opportunity 
to elect district from Orleans Parish. There was no argument 
that there was an offset. There was no argument that there was 
influence being given to African-Americans. Political 
motivations and other motivations, in our view, led the 
legislature to eliminate a district altogether.
    I litigated that case on behalf of LDF, on the same side of 
the ``V'' as the Department of Justice, and the Section 5 
declaratory judgment action resulted in Louisiana withdrawing 
that discriminatory voting change and instead implementing a 
plan that restored the district.
    It is very significant to note that in that case there was 
substantial evidence of intentional discrimination, not the 
least of which was that the line drawers eliminated provisions 
of the redistricting guidelines that said that the State needs 
to follow the Voting Rights Act before they undertook to draft 
the redistricting plan.
    Moving for a moment to the deterrence piece, Professor 
Louis Fraga of Stanford University added a piece of evidence 
into the record that I think we need to focus on just briefly. 
Much has been made of the number of objections that exist in 
the record. In addition, we have talked a great deal about the 
extent to which the trend line of objections is diminishing.
    It is important to note that the Fraga study concludes that 
``More Information'' requests--again, these are part of the 
Section 5 pre-clearance process where the Department of 
Justice, receiving a pre-clearance submission, does not have 
adequate information to determine the effect or intent of the 
submission, and they write a letter or they make a call seeking 
additional information to illuminate the operation of the 
contemplated voting change.
    What Fraga found is that when you analyzed these ``More 
Information'' requests, a number of things happen: occasionally 
voting changes are withdrawn, at other times, they are 
superseded, and at other times they are simply abandoned.
    But the net result, and this is the significant finding, is 
that the ``More Information'' letters result in 51 percent more 
voting changes being stopped than when you simply count 
objection letters alone.
    I will not dwell on that report because it is in the 
record, but I think it is important to note it so that we can 
have a more full understanding of how Section 5 operates to 
deter voting discrimination, as well as block it.
    Finally, I want to touch just briefly on my view of one of 
the important policy issues that is before this committee. 
Senator Kennedy mentioned that some talk has been had about the 
coverage formula and whether it needs modifying in some way. I 
would submit that neither the law, nor practical 
considerations, suggest that the coverage formula needs to 
change.
    As a legal matter, there is nothing in the Supreme Court 
precedents that counsels change. The coverage formula has been 
upheld numerous times by the Supreme Court. It is a formula 
that has from the beginning, in some respects, been imperfect, 
but been fair at targeting areas of the country with dramatic 
evidence of discrimination.
    The Supreme Court has repeatedly upheld that formula, most 
recently in the case of Lopez v. Monterey County, which was 
decided after the court's decision in Boerne, which seemed to 
limit Congressional power to enact enforcement provisions.
    From the practical side, it is important to note that the 
statute, as it exists, has ways into coverage and ways out of 
coverage. Section 3(c) allows courts, where they find evidence 
of discrimination of a serious kind, to bring districts within 
the ambit of coverage.
    Similarly, there is a bail-out provision--and Senator 
Kennedy spoke of a letter that was recently entered--that 
talked a little bit about one jurisdiction's experience. Taken 
together, neither practical considerations nor the law of the 
Supreme Court require changes to the coverage formula at this 
time.
    I thank you for your time.
    Chairman Brownback. Thank you very much.
    [The prepared statement of Mr. Adegbile appears as a 
submission for the record.]
    Chairman Brownback. Mr. Reynolds, the Chairman of the U.S. 
Civil Rights Commission.

 STATEMENT OF GERALD A. REYNOLDS, CHAIRMAN, U.S. COMMISSION ON 
 CIVIL RIGHTS, ASSISTANT GENERAL COUNSEL, KANSAS CITY POWER & 
              LIGHT COMPANY, KANSAS CITY, MISSOURI

    Mr. Reynolds. All right. At the outset, I would like to 
discuss two housekeeping matters. It is possible that I may 
have to leave early, and I would just like a dispensation if 
that is necessary.
    Also, I have revised the testimony that I have submitted. I 
would like my revised testimony to be entered into the record.
    Chairman Brownback. Without objection.
    Mr. Reynolds. Thank you.
    [The prepared statement of Mr. Reynolds appears as a 
submission for the record.]
    Mr. Reynolds. Mr. Chairman, members of the subcommittee, I 
am Gerald Reynolds and I have served as the Chairman of the 
U.S. Commission on Civil Rights since December of 2004.
    The Commission is an independent, bipartisan agency 
established by Congress in 1957 to, among other things, 
investigate complaints alleging that citizens are being 
deprived of their right to vote by reason of their race, color, 
religion, sex, age, disability, national origin, or by reason 
of fraudulent practice.
    The Commission has been called the conscience of the Nation 
on civil rights matters and was instrumental in providing the 
evidence of pervasive discrimination in voting that led to the 
passage of the Voting Rights Act in 1965.
    I am pleased to appear before you today to discuss Section 
5, one of the temporary provisions of the Act, in light of the 
Commission's historical and its early development and 
subsequent reauthorizations.
    At this point, I would like to just discuss the fact that 
in the past, before any major piece of legislation was passed, 
there was a discussion as to the constitutionality of the 
proposed legislation. I think that that was a practice that was 
important. The reauthorization of Section 5 demonstrates why 
that tradition is extremely important.
    As the Supreme Court has stated in South Carolina v. 
Katzenback, ``The constitutional propriety of the Voting Rights 
Act of 1965 must be judged with reference to the historical 
experience it reflects.''
    In other words, the facts that were on the ground, the 
facts that persisted when the Voting Rights Act was enacted, 
are extremely important.
    Now, the factual predicate at the time of its enactment as 
one of persistent defiance on the part of the South of 
constitutional commands and Federal legislation aimed at 
securing the right to vote for blacks.
    A 1961 Commission report identified 100 counties across the 
Nation where black Americans were preventing from voting by 
outright discrimination, by fear of physical violence, or by 
economic reprisal, and pervasive and unlawful violence by 
police officers and others used to repress voting rights.
    Such invidious practices has driven down the average 
registration rate for black citizens in the covered States down 
to 29 percent. After the demise of the institution of slavery 
with the end of the Civil War and the adoption of the 
Thirteenth Amendment, the South imposed a racial caste system.
    A central element of this racial caste system was the 
disenfranchisement of blacks residing in the South. In defiance 
of the Fifteenth Amendment, numerous Federal statutes and court 
orders, and over the course of nearly 100 years, Southern 
States refused to permit appreciable numbers of blacks to vote.
    Each time the Federal Government issued an order or enacted 
legislation to make the right to vote a reality for blacks, 
Southern States would circumvent the law. This aspect of the 
racial caste system, this open defiance of the Constitution, 
persisted for almost 100 years.
    This led Congress to conclude that the unsuccessful 
remedies which had been prescribed in the past had to be 
replaced by sterner and more elaborate measures in order to 
satisfy the clear commands of the Fifteenth Amendment.
    The pre-clearance requirement of Section 5 was included 
among those sterner measures. The court conceded that Section 5 
was ``an uncommon exercise of Congressional power.''
    As Columbia Law Professor Samuel Icharoff notes, ``Section 
5 is an extraordinary intervention that permits the Federal 
Government to overcome their normal presumption of State 
autonomy and respect for Federal.''
    To put it another way, it created a system where the 
Federal Government created a presumption of illegality. Any 
change offered up by a covered State was presumed to be 
unconstitutional.
    That is a radical departure from what we did in the past, 
but it is a radical departure that was necessary in 1965. But 
the question before you is, is that remedy, that radical 
remedy, justified in the 21st century?
    Despite the extreme mature of the Federal remedy in this 
context, the court has recognized that exceptional conditions 
can justify legislative measures that would not be otherwise 
appropriate. The question we face within addressing the 
reauthorization of Section 5 is whether these exceptional 
conditions exist today.
    Beginning in October of 2005, the Commission amassed an 
extensive record of testimony from noted experts in the field, 
thousands of pages of documents from the Justice Department 
provided to the Commission, and relevant court decisions.
    We published our findings and recommendations on the issue 
in both our statutory report entitled ``Voting Rights Act 
Enforcement and Reauthorization,'' and in a briefing report 
entitled ``Reauthorization of the Temporary Provisions of the 
Voting Rights Act.'' I ask that these be included in the record 
for this hearing.
    Chairman Brownback. Without objection.
    Mr. Reynolds. Based on this record, we found the following. 
In those covered jurisdictions, we have seen black registration 
for voting rights substantially increase over the last 40 
years.
    Data presented to the Commission suggests that Southern 
blacks register and vote at rates comparable to, if not higher 
than, the rest of the Nation. Research also indicates that 
since 1984, black registered voters have closely tracked with 
the voting-aged population in the original Section 5 States.
    I would like to conclude by saying that what we have to ask 
ourselves is, looking at the discrimination that exists today, 
my point of view is that the notion that we will eventually 
reach a point where there is no discrimination, that we will 
never reach that point because of the human condition. For 
whatever reason, we--some of us, at least--will find a reason 
to make distinctions based on race and other invidious bases.
    The bottom line is, if the Supreme Court were asked to 
weigh in on the constitutionality of the Voting Rights Act 
looking at today's facts, it is not clear to me that we have 
those exceptional conditions that justified this extraordinary 
remedy back in 1965.
    Thank you.
    Chairman Brownback. Thank you very much, Mr. Reynolds.
    Our third witness is Don Wright, General Counsel for the 
North Carolina Board of Elections.
    Mr. Wright?

STATEMENT OF DONALD M. WRIGHT, GENERAL COUNSEL, NORTH CAROLINA 
        STATE BOARD OF ELECTIONS, DURHAM, NORTH CAROLINA

    Mr. Wright. Thank you, Mr. Chairman and members of the 
subcommittee. I appreciate the invitation to appear.
    My presentation is going to be from the practical aspect, 
from a general counsel who deals with Section 5 matters almost 
on a daily basis. I will not give you a lot of fancy court 
cases and theories. I am going to try to give you how it is to 
deal with the Voting Rights Act on a regular basis.
    I must give a disclaimer. I am general counsel for the 
State Board of Elections. The State Board of Elections is a 
bipartisan group of five individuals, appointed by the 
Governor, in charge of all elections in North Carolina.
    I do not state the opinion of my State Board here today. 
This is my personal opinion, so whatever I state cannot be 
presumed to be the opinion of the State Board of Elections.
    When I was appointed general counsel of the State Board of 
Elections in September of 2000, I was a little afraid of what I 
would find when I started dealing with the Federal bureaucracy 
with the U.S. Department of Justice.
    It has been the most pleasant surprise. I found out they 
were human, that they would actually return phone calls, they 
responded to e-mails, and they were realistic in dealing with 
situations.
    I quickly developed a working relationship with Chris 
Herron, who was assigned to North Carolina pre-clearance 
matters, and worked with Chris until this last April, when he 
was promoted and a new person was appointed, Yvonne Rivera. She 
initiated a phone call to me to say, ``I am your new 
representative at the Department of Justice. Anything you need, 
any expedited help, just give me a call.'' We exchanged e-
mails.
    It has been my experience from the beginning that, I have 
never had any difficulty getting expedited pre-clearance or any 
reasonable cooperation from the U.S. Department of Justice. I 
think the Senate should be proud of the way that Department of 
Justice, and the Voting Rights Section, has worked on pre-
clearance matters.
    In my national meetings with other election administrators, 
I never heard a complaint that on the day-to-day submissions--
which we have got to remember, that is the bulk of what they 
deal with, not the headline redistricting cases, but the day-
to-day submissions--that Justice does not do an excellent job 
in working with the States.
    The responsibilities for submission of pre-clearance is set 
out in North Carolina statutes. My responsibility as general 
counsel for the State Board of Elections is to submit all 
State-wide statutes and all policies and procedures of the 
State Board of Elections, and we make rules and administrative 
guidelines and send them to Department of Justice for pre-
clearance.
    I do quite a bit of that, and as such I have developed, on 
my computer, formatted letters. I will be honest with you, if 
push comes to shove, I could probably knock out a pre-clearance 
on a routine matter in a half an hour.
    That is because of the Federal regulations, which set out 
preclearance submission requirements. They are various 
differences, of course, in submissions, but the heart and soul 
of the submission, the format, is the same so I can easily get 
it out.
    As a matter of practice, I not only send the pre-clearance 
submission by mail, but I fax the preclearance submission if it 
needs to be expedited. For instance, if a polling place burned 
down 2 days before the election, I am on the phone with 
Department of Justice. Very often, I can get that pre-clearance 
there on the phone, subject to them sending a letter, of 
course, later on.
    So I want you to understand, at least based on North 
Carolina's experience--I have not heard different from other 
States--that the way preclearance is administered by the 
Department of Justice is very efficient. I have no reason to 
believe that that would not continue, and I hope it will 
continue.
    So the submission of pre-clearances--and I am talking about 
the routine clearances--has become routine, at least in North 
Carolina.
    Now, there are other types of pre-clearances, such as 
annexations, dealing with municipalities. It may be a little 
more extensive. The Department of Justice rules talk about 
providing additional information for those pre-clearances. That 
will take more than a half hour.
    But keep in mind, the annexation pre-clearance submissions 
and the submissions on redistricting are infrequent, much more 
infrequent, than the routine submissions which the Department 
of Justice gets, such as polling place changes, precinct 
changes, and special election dates.
    So is the current set-up a burden upon the average State or 
jurisdiction in regards to submission? I would contend it is 
not. In preparing for a presentation last year before a group 
here in Washington, I said, well, I do not feel too comfortable 
speaking for all county election directors. I said to myself, I 
will just take an informal survey.
    I talked to 12 county Directors of Elections in North 
Carolina--we have got 40; Section 5 covered counties out of the 
total of 100 North Carolina counties--and said to the county 
director. ``Look, do you think Section 5 is much of a burden 
upon you? Speak frankly with me.''
    The vast majority--I mean, I had one negative comment--but 
everybody else said, we like it. I said, why do you like it? 
They said, well, it gives us protection. It gives us, for lack 
of a better term, a seal of approval, that we have got Justice 
saying what we are doing is right. They said, if anybody 
complains to us, we tell them to call Washington. And they do, 
I understand, call Washington.
    Also, too, it prevents litigation. It stops it. Some of the 
comments I received you might find interesting. These come from 
county election directors, not from me: ``I would hate to 
operate without it,'' referring to Section 5; ``pre-clearance 
requirements are `routine' and do not occupy an exorbitant 
amount of time, energy or resources;'' ``I can always fall back 
on Section 5, that is protection''; and ``it allows us 
opportunity to assure the public that minority rights are being 
protected and that someone is independently validating these 
decisions.'' These comments come from County Elections 
Directors, not from an attorney.
    Then, finally, a county stated, ``The history of ___ 
County, calls for our operations to be scrutinized, and rightly 
so. The first black to serve on my Board of Elections was in 
1991.''
    So from, for lack of a better term, from the ``trenches'', 
where the people deal on a day-to-day basis with pre-clearance, 
at least in North Carolina, we do not consider Section 5 
burden. We would encourage the renewal of Section 5.
    Thank you.
    Chairman Brownback. Thank you very much for the very 
practical testimony.
    [The prepared statement of Mr. Wright appears as a 
submission for the record.]
    Chairman Brownback. Mr. Park, from the Office of the 
Attorney General in Alabama.

  STATEMENT OF JOHN J. PARK, JR., ASSISTANT ATTORNEY GENERAL, 
      OFFICE OF THE ATTORNEY GENERAL, MONTGOMERY, ALABAMBA

    Mr. Park. Mr. Chairman and members of the subcommittee, 
thank you very much for the opportunity to speak this morning.
    In addressing the committee, I draw on my experience, which 
includes litigation about Section 5 issues, redistricting 
matters, voting rights, and the preparation and consultation 
regarding submissions that are made by the State of Alabama.
    I have prepared submissions, I have litigated over their 
adequacy. One of the things that I learned in that process, is 
that Section 5 does not sleep. If we have successfully 
submitted something for pre-clearance, it is subject to attack 
down the road on the ground that we did not adequately identify 
the change for the Department of Justice. We learned to our 
dismay that pre-clearance that had been obtained, in one case, 
in 1984, and again in 1998, was not adequate with respect to 
litigation in 1999.
    Our office handles State statutes and general applicability 
that affect voting. We are the ones who submit it for pre-
clearance. The duty is that of an Assistant Attorney General, 
and it is an extra duty.
    We try to have local jurisdictions take care of their own 
submissions. As Mr. Wright suggested, there is a template, but 
I respectfully suggest that it would be difficult to make a 
submission, even of a routine matter, in an hour.
    I brought a couple of submissions that are short, just as 
demonstrative exhibits. In one instance, we made a submission 
that relates to two constitutional amendments at the county 
level, and we just asked to put them on the ballot. The 
substance of neither amendment related to voting, so all we 
needed to do was ask U.S. DOJ to put these questions on the 
ballot.
    The second one is, likewise, small, about 25 pages, and it 
is a redistricting submission for the town council of the town 
of Lipscomb, outside Birmingham, Alabama. Actually, it is a 
city. It is a city of some 3,000 people.
    Ordinarily, an Assistant Attorney General for the State of 
Alabama would not handle a matter like the pre-clearance of the 
city council plan for a city. Lipscomb, however, was an orphan 
jurisdiction with limited funds.
    I went to Lipscomb, met with the town council, and 
suggested what they ought to do. They came to Montgomery, they 
looked at the computer, they prepared the plan, and I submitted 
it for them.
    In addition, we talked about the major submissions, 
redistricting. In 2000, the State of Alabama successfully 
enacted redistricting plans for its State Senate, State House 
of Representatives, State Board of Education, and its 
Congressional delegation and submitted each of those new plans 
for pre-clearance, and obtained pre-clearance.
    I brought with me the submissions that relate to the State 
Senate plan. It is eight volumes of material. It includes 
alternate plans. It includes testimony before committees that 
went throughout the State before the process was under way to 
take testimony.
    It took a substantial amount of time to do this. I am the 
one who wrote the letter. I worked with other folks to write 
the letter. Of course, the first 90 percent of the letter took 
50 percent of the time. But this submission was the bell cow, 
it is the one that drove the train.
    The House submission incorporated some of these materials, 
otherwise the House submission would have been equally big, and 
the Congressional submission incorporated these materials. So, 
too, did the State Board of Education submission. These are 
exceptional, but they are representative of the amount of work.
    What I would like to suggest to the committee, is that 
things have changed and the Committee should not view the Act 
as a one-way ratchet. The States have changed their behavior.
    It is measured by voter participation, it is measured by 
the participation of African-Americans in government. Eight of 
the 35 members of the Alabama Senate are African-American; 27 
of the 105 members of the Alabama House of Representatives are 
African-American.
    There are African-American members of county commissions, 
county Boards of Education, and town municipality governing 
bodies throughout Alabama. There are African-Americans who have 
served by appointment on the State Supreme Court, but they have 
not been elected State-wide. There are African-American cabinet 
members.
    What I would suggest, is that the Committee find some way 
to loosen the scrutiny of Section 5 without necessarily 
abandoning the scope of it. The Committee should consider 
removing de minimis changes from the coverage of the Act.
    We have to ask to move polling places. We have to ask to 
include constitutional amendments on regularly scheduled 
elections. We have to schedule special elections.
    Those, properly viewed, do not have much potential for 
discrimination, and if somebody did not like what we did they 
should sue us, but we should not be put in the position of 
asking U.S. DOJ for permission to do this when they never 
object.
    Second, you should consider moving the date for determining 
when a change occurs from 1964 to the present. If I have to 
defend a lawsuit and I talk to State election officials, they 
can tell me what happened as long as they have been in office, 
and that is usually 10, 15 years. After that, I have to go to 
the archives, and they will not necessarily provide the answer.
    Third, with respect to bail-out, the Congress should make 
certain that all covered entities, not just jurisdictions, be 
entitled to bail out. The political parties of the State of 
Alabama are both covered entities.
    The Republican party has never had an objection. The 
Democrats and Republicans both want African-American votes. 
They do not have any interest in reducing their participation. 
But they, because they are not political subdivisions, cannot 
seek bail-out. I respectfully suggest that there is a 
constitutional problem with that possibility.
    Finally, I think that the period proposed of 25 years is 
simply longer than necessary. Congress should revisit this in a 
substantially shorter period. Thank you very much.
    Chairman Brownback. Thank you, Mr. Park.
    [The prepared statement of Mr. Park appears as a submission 
for the record.]
    Chairman Brownback. Senator Kennedy?
    Senator Kennedy. Mr. Chairman, this is a very useful and 
helpful panel. I necessarily have to absent myself, and I would 
like to submit some written questions, if I could, and get 
answers for the record.
    Chairman Brownback. Absolutely.
    Senator Kennedy. I thank all of the panelists for their 
presence here today. Thank you.
    Chairman Brownback. Yes. Thank you, Senator Kennedy. Thank 
you for your participation and your long-time support for the 
Voting Rights Act. You have been involved in it for some period 
of time, you and your family. Thank you.
    Professor David Canon?

 STATEMENT OF DAVID CANON, PROFESSOR, DEPARTMENT OF POLITICAL 
      SCIENCE, UNIVERSITY OF WISCONSIN, MADISON, WISCONSIN

    Mr. Canon. Thank you, Mr. Chairman and members of the 
committee. Thank you for inviting me to testify this afternoon.
    I will focus my comments today on something we have not 
heard about yet today, which is the so-called Ashcroft Fix, 
which would restore the standard for retrogression to what it 
was before the Ashcroft v. Georgia decision.
    But, first, let me say a few words about the necessity of 
extending Section 5 of the Voting Rights Act. Much of this has 
been covered by witnesses already, so I will not spend much 
time on this.
    But basically, the critics of Section 5 argue, in part, 
that pre-clearance is no longer needed because of the success 
that minority voters have had in electing candidates of their 
choice in covered districts.
    But if you look at the actual evidence, the data, there is 
really not much empirical basis for optimism on the success 
that minority voters have had in being elected in white-
majority districts.
    The exceptions are exceptional because they are so rare. If 
you look at all of the elections and House districts from 1965 
up through 2004, over 8,000 House elections, only 49 of them 
involved African-Americans elected in white-majority districts. 
That is less than six-tenths of 1 percent.
    If you look at covered districts, the evidence is similar. 
In fact, you have a gap of over 100 years for most of the 
covered States, from the end of reconstruction up through the 
1980's and 1990's, when no African-Americans were elected from 
covered States at all for that period of over 100 years.
    So, clearly, the idea that we have had more success is 
true, but, still, it almost exclusively happens in majority/
minority districts, which raises the importance then of 
maintaining the pre-clearance provision of Section 5, that you 
would not have had the creation of the black-majority districts 
in 1992 that led to the election of large numbers of African-
Americans to the U.S. House without that pre-clearance 
provision, without the Justice Department telling States that 
they needed to create these black-majority districts. So that, 
I think, is very strong testimony in favor of extending the 
Section 5 pre-clearance provision.
    Another thing that some critics have mentioned in terms of 
the context of Section 5, is that because of the extremely low 
rejection rate by the Department of Justice, this indicates 
that, again, Section 5 is no longer needed.
    Well, we have heard from witnesses today, and saw already 
in the written testimony, that the deterrent effect of Section 
5 itself prevents some things from happening that otherwise 
would have.
    So if you remove Section 5 pre-clearance, that deterrent 
effect would no longer be there. You would have, I think, more 
violations that would require people who are harmed by the 
discriminatory practices to sue, and in many cases they would 
not have the resources to do so, so the practices would go into 
effect.
    Finally, on the issue of the low rejection rate, the focus 
on the low rejection rate ignores the extent to which many of 
the objections do concern very important violations of the 
Voting Rights Act. So while they are relatively small in 
number, they are very important in terms of significance.
    So with the remainder of my time, I want to focus on, 
again, the Ashcroft Fix. Specifically, in the Senate bill that 
you are considering, 2703, this would restore the standard for 
retrogression to what was in place before Georgia v. Ashcroft.
    The proposed legislation would clarify the purpose of 
Section 5 of the Voting Rights Act, to protect the ability of 
minority citizens to elect their preferred candidates of choice 
rather than allowing the ability of elective districts to be 
traded off against influence districts the way that the 
Ashcroft decision would allow.
    I support this clarification of Section 5. I see two main 
reasons that the totality of circumstances test of Georgia v. 
Ashcroft should be overturned.
    First of all, the test is vague and unworkable. I think it 
is just a practical nightmare in terms of how you would 
actually go about measuring the relative power of African-
American voters to have their voice heard in the representative 
process. It is a whole new ball game that the court is asking 
us to engage in here, and I think it would be very difficult.
    Second, allowing influence districts to be traded off for 
ability to elect districts would erode the gains in 
opportunities to elect candidates of choice that have been made 
in Congress for the last 40 years.
    Let me elaborate a little bit more on the first point. 
Because time is running out, I will not talk so much about the 
second point. But on the first point, in terms of the ``vague 
and unworkable'' standard, having something to try to measure 
representation in Congress that would require you to balance a 
certain number of influence districts versus a certain ability 
to elect districts requires us to do a tremendous amount of 
work on actual legislative behavior: now, what are members of 
Congress doing? What are State legislators doing for their 
constituents, on behalf of their constituents?
    So while some people propose fairly simple roll call 
analysis that just looks at votes, that is actually not 
adequate to look at the entire representative record. When you 
look at the entire representative record, it takes, literally, 
hundreds of hours to examine not only roll call votes, but also 
proposed legislation. What are they doing in terms of 
constituency service? How are the representatives of their 
staffs in terms of minority representation, and so on?
    So one attempt of this was my work in the remand of the 
Georgia v. Ashcroft case, where I did make an effort to measure 
influence districts the way the majority of the Supreme Court 
dictated us to do.
    So to do that, I went and looked at all 1,500 bills that 
have been proposed in the Georgia State Senate, which was the 
legislature in question, between 1999 and 2004 in terms of 
their racial content and whether or not they were representing 
racial interests.
    What I found in that case, is African-American State 
Senators had a far higher rate, about 40 percent, of their 
proposed legislation that had some racial content, while 
compared to about 3 percent for the white Republican Senators, 
and ranged from 5 to 19 percent for the white Democrats.
    The thing that was the strongest bit of evidence on this 
question of responsiveness, was that the white State Senators, 
both Democrats and Republicans alike, were not responsive to 
increases in the percent of black voters in their districts.
    In other words, if you had a white State Senator who was a 
Democrat in a district that is 5 percent African-American, he 
or she behaved no differently than in one with 40 percent 
African-Americans. So, they were not being responsive to the 
needs of African-American constituents in their districts.
    I think if you would maintain the Georgia v. Ashcroft 
decision it would be extremely harmful to minority interests, 
so I strongly endorse the Ashcroft Fix, which would restore the 
retrogression standard to the pre-Ashcroft standard, which was 
focusing on the ability to elect. I think that is where that 
focus should be.
    Thank you very much.
    Chairman Brownback. Thank you very much. An interesting 
analysis, Professor Canon.
    Professor Carol Swain of Vanderbilt University. We 
appreciate very much your being here.
    Professor Swain?

 STATEMENT OF CAROL SWAIN, PROFESSOR OF POLITICAL SCIENCE AND 
 PROFESSOR OF LAW, VANDERBILT UNIVERSITY, NASHVILLE, TENNESSEE

    Ms. Swain. Thank you, Mr. Chairman and members of the 
subcommittee. I would like to begin by clarifying why I believe 
I was invited to speak, and that is because I am the author of 
a book entitled, Black Faces, Black Interests: The 
Representation of African-Americans in Congress, which was 
published in 1993 by Harvard University Press, reprinted in 
1995 with an expanded edition, and reprinted again in 2006 by 
University Press of America.
    Black Faces, Black Interests book won three national 
prizes, including the prize for best book published in the 
United States, the Woodrow Wilson Prize, which is the highest 
prize that a political scientist can win. It also won the D.B. 
Hardeman Prize for the best book on Congress for a biennial 
period, and it was co-winner of the V.O. Key Prize.
    Mr. Canon and some of the other witnesses, have published 
works that are derivative. I would like to establish that I am 
not a lawyer, but I have written a book that many people 
consider important.
    In Black Faces, Black Interests, I argue that political 
party is more important than the race of the representative. As 
long as African-Americans hold the views that they do, they are 
best represented by Democrats. Consequently, I have questioned 
the drawing of the majority-black districts and pointed out 
that such a strategy was likely to add to the growth of the 
Republican party, and that black interests were best served 
when there are more people in office to support a particular 
agenda.
    I made a distinction between descriptive representative, 
more black faces in office, and substantive representation, 
more people who vote for your agenda.
    I believe that substantive representation is far more 
important than descriptive representation and that voters are 
best served by having more people in office, regardless of 
their race, that can support the things that the care about.
    I come here strongly in favor of the reauthorization of 
Section 5. I believe that we should be concerned about voter 
discrimination whenever and wherever it occurs, and there is 
plenty of evidence that it occurs nationwide. I would like to 
see Section 5 reauthorized and strengthened so that there would 
be nationwide protection beyond what is offered with Section 2.
    I would also like to see the bail-out process for covered 
jurisdictions streamlined so that those jurisdictions with 
established records of compliance, can more easily bail out. We 
could perhaps include some type of probationary period so that 
if jurisdictions are found in violation again they would 
immediately come under coverage again. Overall, I think we 
should reward good behavior and punish bad behavior. There are 
many places outside the covered jurisdictions where 
discrimination occurs.
    Moreover, unlike Professor Canon, I believe that Georgia v. 
Ashcroft was a good decision. I believe it was a good decision 
because it was one of those rare moments where politicians 
moved beyond their own narrow self-interests.
    Every major black elected Democrat in Georgia, except one, 
argued in favor of unpacking the majority-black districts. 
These elected officials acknowledged that the world has changed 
significantly since 1965, and that race is no longer a major 
barrier to the election of black Democrats in the south.
    These black Democrats supported the enactment of influence 
districts and the unpacking of majority black ones. The Voting 
Rights Act was never intended to guarantee the election of a 
politician of a particular race or ethnicity.
    Instead, the VRA was supposed to ensure the representation 
of the interests of the people, and those interests can be 
represented by politicians of any race. Many of the issues that 
politicians frame as being about race, even something as 
salient as felony disenfranchisement, are not really about 
race.
    If anything, it is more about social class and educational 
levels. This applies to the death penalty, the people on Death 
Row. You do not find rich people on death row. You find people 
who are poor whites, poor blacks, and poor Hispanics.
    A lot of the issues that Congress frame and the nation as 
being about race, are not about race, they are about social 
class. We can have better legislation that protects the 
interests of all voters if we stop framing everything as being 
about race.
    Yes, the Voting Rights Act has to be reauthorized, and it 
has to be strengthened. I believe that 25 years is a long time. 
Many of us will not be around in 25 years. The nation is 
changing dramatically in its demographics: there are growing 
numbers of Hispanic voters. Hispanics are the fastest-growing 
group; the Asians are also growing. Nationwide, all voters need 
their voting rights protected.
    By 2050, it has been estimated that whites may be a 
minority in this Nation. It is crucial for us to have national 
comprehensive voting rights legislation. Yes, Section 5 should 
be reauthorized, it should be strengthened. And Georgia v. 
Aschcroft should be allowed to stand. Thank you.
    Chairman Brownback. Thank you very much.
    [The prepared statement of Ms. Swain appears as a 
submission for the record.]
    Chairman Brownback. Well, I expect a spirited questioning 
session here. We have got quite a few opinions that have been 
put forward, and that is useful as we look at this piece of 
legislation.
    Let us run 5 minutes on questions. If we need another 
round, we will do that.
    Mr. Reynolds, I am a little uncertain on your testimony. 
You were saying that the situation to extend Section 5 is not 
there today. Now, am I understanding you to say by that then we 
do not need Section 5 today, or you are supporting changes to 
Section 5? I just want to get that clarified.
    Mr. Reynolds. All right. In 1950, a black man goes to the 
Registrar's office to try to register.
    Chairman Brownback. My time is real short.
    Mr. Reynolds. I am sorry. Senator Brownback. Do we have the 
situation today to do this?
    Mr. Reynolds. The facts on the ground today are quite 
different from the facts that existed when the Voting Rights 
Act was passed. I cannot, with a straight face, conclude that 
blacks today live under the same repression that existed in the 
South.
    As I started out in my testimony, we are talking about a 
racial caste system that was put into place across the South. 
That racial caste system----
    Chairman Brownback. Nobody would dispute that. But do we 
extend Section 5 or not?
    Mr. Reynolds. I am not speaking for the Commission. I would 
say no. The only way that the Voting Rights Act is 
constitutional, in my view, is if we conclude that the factual 
predicate that justified it in the first place is still there. 
I do not think that that is the case.
    However, this is about politics, and politics is about 
compromise. There are lots of things that we can do. If there 
is a substantial number of folks who want to reauthorize the 
Voting Rights Act, there are many fixes; Professor Swain 
mentioned one.
    Similarly situated citizens should be treated the same, so 
if you are a black living in a jurisdiction that is not 
covered, it seems to me that that black, or any American, 
should have the same constitutional and statutory protections 
as someone living in a covered jurisdiction.
    Chairman Brownback. I think that is an excellent point.
    I want to move to, what about the 25-year extension? Do you 
think it should be extended for 25 years? Others are suggesting 
a 5-year extension.
    Mr. Reynolds. I think that a 5-year extension, or a 10-year 
extension would be preferable. I also believe that the trigger 
needs to be updated. Currently, the trigger is key to the 1964 
elections. I believe that is bordering on being irrational----
    Chairman Brownback. Yes.
    Mr. Reynolds. [Continuing]. To have a trigger that is 
grounded at a particular point in time without taking into 
account the sea change that has occurred in American society.
    Chairman Brownback. All right.
    Now, I want to quickly go on to the minority/majority seats 
orientation. Ms. Swain, if I am understanding you correctly, 
you do not think that is a good idea, presently. Or correct me.
    Ms. Swain. I will tell you what I believe. I believe that 
race is no longer a major barrier to the election of black 
elected officials, especially in traditionally Democratic 
districts. One reason why we do not have more black elected 
officials in majority-white districts is that they are 
discouraged from running; it is very difficult to raise funds.
    If parties wanted to increase the number of minorities 
elected in majority-white districts, they would cough up more 
money for campaigns, because it is very expensive to run in 
such a district.
    Chairman Brownback. It is. But I want to get to a fine 
point on this. So you do not like majority/minority designation 
districts. Is that correct? Do you disagree with that?
    Ms. Swain. No, it is not that.
    Chairman Brownback. Then you do support that?
    Ms. Swain. No, I am not saying, no, that I do not dislike 
them. I am saying that it is not the only way to elect blacks 
to Congress.
    Chairman Brownback. I understand that.
    Ms. Swain. There is too much focus on it.
    Chairman Brownback. I am just trying to get to a point here 
about whether you support this design or not.
    Ms. Swain. I do not support them as being esential to the 
election of minority politicians. I think influence and 
coalitional districts are more important for the Nation as a 
whole, and more practical.
    Chairman Brownback. All right.
    Now, quickly, because I am short on time, Professor Canon, 
you disagree. You think you need majority/minority seats, and 
that the proof is that you do not elect minorities without 
them. Is that correct?
    Mr. Canon. Correct, with one important change in 
terminology. Rather than ``majority/minority,'' ``ability to 
elect.'' Ability to elect is the legal thing to focus on, and 
that truly is the practical thing to focus on as well.
    If you have sufficient cross-over voting and sufficiently 
low levels of racially polarized voting, it is quite possible 
to elect African-Americans in districts that may only be 40, 45 
percent African-American. So that is what the flexibility of 
the ``ability to elect'' standard allows you to do, is that it 
is a case-by-case kind of analysis.
    Chairman Brownback. All right.
    Mr. Canon. So majority/minority is essential most of the 
time, but ability to elect is the key thing.
    Chairman Brownback. So you support majority/minority, but 
you want to rephrase how that is defined then so that it can be 
easier to elect minorities?
    Mr. Canon. No. I was just saying, to urge the focus on the 
actual language of S. 2703, which is the ability to elect. In 
the standard to restore the retrogression standard of what it 
would be before Ashcroft, the actual language of the proposed 
legislation is on ability to elect, not on majority/minority. 
So I was just saying that that should be the legal focus here.
    Chairman Brownback. All right.
    Mr. Canon. In practical terms, it often does take a 
majority/minority district, but does not require it.
    Chairman Brownback. All right. Thank you.
    Senator Cornyn?
    Senator Cornyn. Thank you very much.
    Well, I am glad we are having this discussion. 
Unfortunately, I think we do not have enough discussions about 
race, its role in our society, and how we can reconcile 
ourselves and deal with some of the wounds of the past. So, I 
think this has been very, very helpful.
    Just to make sure we understand, and I think this is what, 
Chairman Reynolds, you were alluding to, but I want to make 
sure everybody here understands and knows who may be reading 
this transcript, the Voting Rights Act is not going to expire.
    Mr. Reynolds. That is correct.
    Senator Cornyn. The Voting Rights Act, which codifies the 
Fifteenth Amendment to the U.S. Constitution, which guarantees 
no discrimination in voting rights based on race, is a 
permanent part of our law.
    The only issue that we are talking about with regard to 
reauthorization has to do with Section 5, and we will describe 
that in a minute, and Section 203, which has to do with 
multilingual ballots.
    Just so people understand, only nine States and some other 
smaller political subdivisions are covered by Section 5. As Mr. 
Wright, Mr. Park, and others indicated, that obligates those 
covered States to seek pre-clearance from the Department of 
Justice on any changes in their voting practices or procedures 
before they can go into effect.
    For the rest of the country, all the rest of the United 
States, they do not have to pre-clear, but they are subject to 
Section 2 of the Voting Rights Act. They can be sued for 
discriminatory voting practices. That remains available whether 
Section 5 is reauthorized or not.
    A finer point. The reason why it is so important that we 
get this right, is because the U.S. Supreme Court has warned us 
that in passing reauthorizing Section 5, there must be 
``congruence and proportionality to the injury sought to be 
prevented or remedied.''
    In other words, this is an extraordinary use of Federal 
authority and imposition upon the sovereign States. I know we 
do not think about this so much today, but the States are 
actually sovereign entities which we were bringing in as part 
of the Federal Government back when this Nation was created.
    The Supreme Court has said, under the Fifteenth Amendment 
of the Constitution, that the Federal Government's power is not 
plenary. It just cannot do anything it wants, anywhere it wants 
with regard to the States. There has got to be a reason for it. 
The remedy has to be proportional and congruent to the injury 
sought to be prevented from remedy.
    That leads me to this question. There have been a lot of 
changes, as has been noted in this country, since the passage 
of the Voting Rights Act. We can all stipulate, that is a good 
thing. Nobody wants to go back to the way things were before.
    In my State, we had about 57 percent of African-American 
voter registration when the Voting Rights Act was passed, and 
in all those jurisdictions covered it was about 40 percent.
    But thank goodness, today, because of changes in America, 
changes in the law, and because of the success of the Voting 
Rights Act, we now see that African-American voting 
registration in covered jurisdictions, that is the nine that 
have to pre-clear under Section 5, exceed that of the entire 
Nation.
    In other words, if my chart here is correct, it shows about 
64 percent African-American voting registration based on the 
2004 Presidential race.
    In covered jurisdictions, those that had had a past history 
of discrimination and which are required to pre-clear, they 
actually have better African-American voter registration than 
they have had in the rest of the country.
    So my question, Chairman Reynolds, for you is, part of this 
formula for the application of Section 5 to justify this 
intrusive action by the Federal Government, albeit remedial and 
justified in the past based on historical discrimination, what 
possible justification could there be for triggering Section 5 
based on 1964 election returns, 1968 election returns, 1972 
election returns, when America is a changed Nation and we no 
longer have the same sort of problems--to the same extent, I 
should say. We still have the same problems, no question about 
it--that we had back in 1964, 1968 or 1972? Should we tie it to 
2000-2004 elections?
    Mr. Reynolds. Well, I think that, at a minimum, the trigger 
should be updated. There has been a sea change in the culture. 
There has been a sea change in race relations. Again, it is 
difficult.
    Having conversations with my children, it is difficult for 
them to understand that their grandparents, who lived in the 
South, lived under a racial caste system. This is truly history 
for them. They will not have to deal with the levels of 
oppression that existed in the South in 1965.
    So is it a good idea to update this trigger? The answer is 
yes. I think that, as a matter of public policy, we should take 
a look to determine if changed circumstances warrants a new 
trigger, and I believe that the answer is yes.
    And also, to ensure that the statute is not successfully 
challenged, I think that Congress needs to look at the Act on a 
regular basis and to tailor the remedy to the harm.
    Senator Cornyn. I am sorry to interject there, because I 
know the clock is ticking away. But just to put the final point 
on it. If we do not get it right, the U.S. Supreme Court is 
likely to strike down that as an unjustified extension of 
Federal power over the States. Is that not correct? That was 
what Burney tells us.
    Chairman Brownback. A short answer here, please.
    Mr. Reynolds. The short answer is, I am not sure what the 
Supreme Court is doing, but to ensure that the Supreme Court 
does not have to face this question, I say that we need to 
tailor the trigger, we need to update the statute, we need to 
recognize the improvements that have occurred in society.
    Chairman Brownback. Thank you. I must apologize the panel, 
I have got another engagement. I am going to ask Senator Cornyn 
if he would finish chairing the hearing. Can you do that?
    Senator Cornyn. Mr. Chairman, I was just gathering my 
papers because I have another conflict, too. We can turn it 
over to Senator Sessions.
    Chairman Brownback. We will turn the hearing over, if that 
is all right, to Senator Sessions. You have got the rest of the 
time clock to ask questions.
    Senator Sessions. All right.
    Chairman Brownback. I do want to say, as I exit, I think 
this has been an excellent panel, a lot of thoughtful comments. 
These are tough things to discuss a lot of times because this 
has been a very important piece of legislation, the Voting 
Rights Act. It almost becomes a sacred document, so it is tough 
to talk about it, but it is important to talk about it, and 
what does it mean in the context of 2006.
    So I am hopeful that we can get the extension on this 
passed. It is a serious piece of legislation. We need it, but I 
think we need to get it right so it does withstand 
constitutional challenge, and it continues to improve our 
country.
    This has been one of those foundational pieces of 
legislation that you look at and you say, this really changed 
things for the better, it made a lot of things much better. I 
just want to make sure we continue that in the great tradition 
of what this legislation has meant.
    Senator Sessions, thank you very much.
    Senator Sessions. Thank you, Mr. Chairman. I am due to be 
defending America on the floor pretty soon on the defense bill, 
so I do not have a lot of time either; I wish that I did.
    Let me just say, as a Senator from Alabama, we do not 
dispute, and in fact fully recognize, the racial discrimination 
that was, by law, in existence in Alabama in the 1960's that 
deprived people of the right to vote systematically and in 
large numbers in certain areas, virtually totally eliminating 
people because of the color of their skin of the right to vote.
    It was wrong and it could not be justified. The Voting 
Rights Act was a powerful piece of legislation that I believe 
has, in fact, done more for race relations than most anything 
else that has been passed.
    People say that frequently, and I think that is legitimate 
because it has empowered people to be a part of the electoral 
process when they were denied the right to be part of the 
electoral process, a wrong that is still in the memory of many 
African-American citizens throughout the South. This was in 
their lifetimes, in our lifetimes.
    So it is not a matter we ought to treat lightly, that we 
ought to be in any way flippant about. I would just say that I 
do not sense any commitment on this Congress' part to do 
anything other than reauthorize this Act, for a whole lot of 
reasons.
    I get the impression from my State, that people who 
understand how this Act works are willing to continue to do 
many of the requirements that the Department of Justice and the 
Act puts on them, even though, in many instances, it is just 
really foolish. It does not really do anything other than go 
through a paperwork process.
    But they are prepared to do that. They want to affirm that 
the South, these nine States, have changed, that we are in a 
new world, and they are not afraid to have the Department of 
Justice or anybody else examine what they do. In fact, they are 
willing to go through that. All right.
    But I think that it is appropriate for us to analyze some 
of the requirements of the Act and to ask ourselves whether or 
not we can make it work better, whether or not--I believe it 
was Professor Swain who said--we recognize some areas where 
problems no longer exist, and create a system that is more 
workable and focuses on the more legitimate questions that come 
up.
    Serious questions that arise, like redistricting, have big 
impacts. You have got to be really careful about that. I do not 
sense any suggestion that we want the Voting Rights Act to be 
amended so as to eliminate that, but there are some areas where 
I think it could be improved.
    Professor Swain, you indicated that you thought the 
Democratic party may reflect the interests of the African-
American community. I do not know if you know, I quoted from 
you this morning on the floor of the U.S. Senate. Did you know 
that?
    Ms. Swain. I am honored. No, I did not know that.
    Senator Sessions. I did not know you would be on this 
panel. I did so, because I agreed with you on your opinion on 
the immigration bill, that low-skilled or African-American 
workers may be hurt more by this bill than any other groups of 
people.
    Ms. Swain. Working class whites and legal immigrants are 
hurt also.
    Senator Sessions. Yes.
    Ms. Swain. It is a bill that affects all Americans.
    Senator Sessions. Well, I agree. [Laughter.] And you and I 
agree. Sixty percent of the Republicans in the Senate agreed 
with you and me, and only four Democrats did.
    Ms. Swain. That is because Southerners have good common 
sense. [Laughter.]
    Senator Sessions. Well, the point is, I guess, nothing is 
certain, as in politics and life.
    Jack Park, it is great to see you. You are a terrific 
lawyer and represented the State of Alabama well. You mentioned 
this baseline date. You are not talking about changing the 
coverage trigger date. You are talking about the baseline, that 
that sometimes leads to extraordinary difficulties for a State 
in handling the Voting Rights Act.
    Could you share with us how those problems exist and 
whether or not we could improve that language to make it more 
rational without diminishing the protections that the Act 
provides?
    Mr. Park. A change is something measured by a reference for 
the State of Alabama to the standard practice or procedure that 
was in place on November 1, 1964.
    The election officials who were working at that time are no 
longer around, so we need to rely on election officials to tell 
us what the practices are.
    Senator Sessions. How does this come up? Why do you have to 
know what the practices were in 1964?
    Mr. Park. If we are applying a statute that was in effect 
in 1964, the statute does not cover the waterfront. So election 
officials figure out how they are going to work various ways to 
comply with the statute, and those evolve into practices.
    They are never put into writing, but they are always done, 
they are always done the same way. The election officials 
always try to make them as fair as possible. If we change an 
unwritten practice, that is a change.
    Senator Sessions. And that has to be pre-cleared by the 
Department of Justice.
    Mr. Park. That has to be pre-cleared.
    In litigation in which I was involved, the Secretary of 
State's Office insisted that they had been following party 
directions to take disqualified candidates off for years, but 
they could talk only about 15 years back.
    So we went to the archives and we found some examples where 
candidates had been taken off party primary ballots before 
November 1, 1964, but a State court judge said that was not 
enough, it is not the right kind of removal.
    So the archival records, as good as they are, are not 
enough to tell us exactly what we need to know. We need to be 
able to draw on the knowledge base of our current election 
officials. That is why the baseline date should be moved 
forward.
    Senator Sessions. In other words, it is all right to 
determine from the current officials what the standards, or 
maybe unwritten practices are, but it is weird and unnecessary 
to figure out what it was 35 years ago. It is less relevant and 
very difficult to prove.
    Mr. Park. Yes, sir. Almost impossible to prove.
    Senator Sessions. Would any of you others express concerns 
about that? Yes?
    Mr. Adegbile. Senator Sessions, with respect to the 
coverage formula, I think it is important to make the point 
that while registration and turn-out was, and has been, an 
integral aspect, the registration and turn-out was not the 
whole story.
    It was a legislative proxy that Congress arrived at for 
determining certain jurisdictions that had entrenched histories 
of discrimination. In subsequent renewals this body has 
recognized, by examining the record in the coverage 
jurisdictions, that the problem or the evil that Congress 
sought to remediate, that being discrimination in voting, 
persisted.
    So I think that it is not fair for us to put too much focus 
on the coverage formula and not look at it in the context of 
what subsequent hearings before this Congress have recognized, 
that the story is multifaceted and complex.
    To be sure, the triggering formula is important; it is 
integral and it gives us the coverage that we see on the map 
today. But as I testified earlier, it is not static, in that 
there are ways into coverage and ways outside of coverage, and 
both have been utilized in the years since the last renewal.
    Senator Sessions. Professor Swain, would you like to 
comment?
    Ms. Swain. Yes. I think that if we were to have a uniform 
national voting rights law, that we would probably have to 
change the trigger factor to take into consideration the 
histories of the Nation as a whole.
    I would like to point out that African-Americans are no 
longer the largest minority group in America, that we are also 
dealing with growing numbers of Hispanics, Asians. I believe 
the Voting Rights Act has to be framed in a way that it 
protects all voters, wherever they live, regardless of their 
race.
    Senator Sessions. Let me ask you a question. You are from 
Nashville, at Vanderbilt University.
    Ms. Swain. Yes.
    Senator Sessions. I would ask you to handicap the 
possibility of racial discrimination at Boston, New York, 
Chicago, Philadelphia, and Nashville.
    Ms. Swain. I know that racial discrimination happens all 
over the country, and it is global. It is not confined to a 
particular region of the country or world. I have lived outside 
the South. I was a tenured professor at Princeton University. I 
have traveled quite a bit.
    I do not believe that the rest of the Nation can point a 
finger at the South, a legitimate finger, as discrimination 
occurs in many places. A lot of it may be because of the self-
interests of politicians or for partisan gain, but it is not 
confined to a particular region of the Nation.
    Mr. Reynolds. Senator Sessions?
    Senator Sessions. Yes?
    Mr. Reynolds. If you do not mind, I would like to address 
that issue also.
    Senator Sessions. Please.
    Mr. Reynolds. I think that both you and Professor Swain 
raise important issues. Again, we should have uniform rules 
that apply to all citizens. Certain citizens should not have 
enhanced protections merely because of our history.
    The South was guilty of this pervasive disenfranchisement, 
but the North did not have clean hands either. They had a 
different system. They did not have, for the most part, 
literacy tests and poll taxes, but the North was not free from 
discriminatory contact.
    So if we are going to have this, if we assume that we can 
get over the constitutional issues, then I think that we need 
to have a conversation that starts off with the premise that we 
should have a rule that applies to all citizens. So, the 
trigger would have to be revisited under those circumstances.
    Senator Sessions. Chairman Reynolds, I would just ask you 
to followup a little bit more with what you just said. Is it 
your feeling that there is something inherently unwise, maybe 
even unconstitutional, about a focus on a certain area of the 
country when the evidence is such that it may not justify them 
being treated differently any longer? You are Chairman of the 
Civil Rights Commission and you think about these issues, and I 
would appreciate your thoughts on that question.
    Mr. Reynolds. That is the heart of the matter. In 1965, 
this extraordinary remedy was justified by the conduct of the 
South. Every Federal attempt to provide blacks with the right 
to vote was thwarted by the South.
    Under those circumstances, this extraordinary remedy was 
justified. But we are now into the 21st century. There has been 
a sea change in racial attitudes in the country. There are many 
blacks who have been elected to office, both at the State and 
Federal levels. The country has changed.
    The harm that the court was addressing was pervasive, 
widespread discriminatory conduct aimed at preventing blacks to 
vote. That is the harm. Now, the issue is, is the extent of 
that harm still there? Do we have the same level of 
discriminatory conduct?
    That is not to suggest that there is an acceptable level of 
discriminatory conduct, but I am saying that, in order to pass 
constitutional muster, this institution will have to revisit 
and reexamine the remedy. We have to look at the harm that is 
currently in place and we have to look at the remedy to ensure 
that there is proportionality. So, that is my two cents on the 
issue.
    Senator Sessions. Thank you.
    Mr. Adegbile. Senator, if I could respond, just very 
briefly, to that point.
    Senator Sessions. Briefly.
    Mr. Adegbile. I think there is an inherent tension between 
the court's decisions under Boerne and the requirement for 
congruence and proportionality, with the conception that we 
should extend Section 5 nationwide.
    For example, there are parts of the country where there are 
no minority citizens that need protection. The Boerne decisions 
have recognized that limitations as to time and as to geography 
are important considerations in weighing the constitutionality 
of statutes.
    So I am a little puzzled why one would suggest that we save 
this statute by extending it to places where, clearly, it will 
tend to undermine, rather than support, the constitutionality 
of the statute. I think that is a very substantial 
consideration for this distinguished body.
    Senator Sessions. Well, thank you very much. Those are very 
important issues. It is a matter that this Congress, I am 
confident, will act on and we will move forward.
    Our record will remain open for 7 days, 1 week, for written 
questions. I would like to ask each of you, if you receive 
questions from the members, to respond as promptly as you can.
    Thank you all for your testimony today on this very 
important issue. Thank you very much.
    [Whereupon, at 3:30 p.m. the hearing was adjourned.]
    [Questions and answers and submissions for the record 
follow.]

[GRAPHIC] [TIFF OMITTED] T1269.001

[GRAPHIC] [TIFF OMITTED] T1269.002

[GRAPHIC] [TIFF OMITTED] T1269.003

[GRAPHIC] [TIFF OMITTED] T1269.004

[GRAPHIC] [TIFF OMITTED] T1269.005

[GRAPHIC] [TIFF OMITTED] T1269.006

[GRAPHIC] [TIFF OMITTED] T1269.007

[GRAPHIC] [TIFF OMITTED] T1269.008

[GRAPHIC] [TIFF OMITTED] T1269.009

[GRAPHIC] [TIFF OMITTED] T1269.010

[GRAPHIC] [TIFF OMITTED] T1269.011

[GRAPHIC] [TIFF OMITTED] T1269.012

[GRAPHIC] [TIFF OMITTED] T1269.013

[GRAPHIC] [TIFF OMITTED] T1269.014

[GRAPHIC] [TIFF OMITTED] T1269.015

[GRAPHIC] [TIFF OMITTED] T1269.016

[GRAPHIC] [TIFF OMITTED] T1269.017

[GRAPHIC] [TIFF OMITTED] T1269.018

[GRAPHIC] [TIFF OMITTED] T1269.019

[GRAPHIC] [TIFF OMITTED] T1269.020

[GRAPHIC] [TIFF OMITTED] T1269.021

[GRAPHIC] [TIFF OMITTED] T1269.022

[GRAPHIC] [TIFF OMITTED] T1269.023

[GRAPHIC] [TIFF OMITTED] T1269.024

[GRAPHIC] [TIFF OMITTED] T1269.025

[GRAPHIC] [TIFF OMITTED] T1269.026

[GRAPHIC] [TIFF OMITTED] T1269.027

[GRAPHIC] [TIFF OMITTED] T1269.028

[GRAPHIC] [TIFF OMITTED] T1269.029

[GRAPHIC] [TIFF OMITTED] T1269.030

[GRAPHIC] [TIFF OMITTED] T1269.031

[GRAPHIC] [TIFF OMITTED] T1269.032

[GRAPHIC] [TIFF OMITTED] T1269.033

[GRAPHIC] [TIFF OMITTED] T1269.034

[GRAPHIC] [TIFF OMITTED] T1269.035

[GRAPHIC] [TIFF OMITTED] T1269.036

[GRAPHIC] [TIFF OMITTED] T1269.037

[GRAPHIC] [TIFF OMITTED] T1269.038

[GRAPHIC] [TIFF OMITTED] T1269.039

[GRAPHIC] [TIFF OMITTED] T1269.040

[GRAPHIC] [TIFF OMITTED] T1269.041

[GRAPHIC] [TIFF OMITTED] T1269.042

[GRAPHIC] [TIFF OMITTED] T1269.043

[GRAPHIC] [TIFF OMITTED] T1269.044

[GRAPHIC] [TIFF OMITTED] T1269.045

[GRAPHIC] [TIFF OMITTED] T1269.046

[GRAPHIC] [TIFF OMITTED] T1269.047

[GRAPHIC] [TIFF OMITTED] T1269.048

[GRAPHIC] [TIFF OMITTED] T1269.049

[GRAPHIC] [TIFF OMITTED] T1269.050

[GRAPHIC] [TIFF OMITTED] T1269.051

[GRAPHIC] [TIFF OMITTED] T1269.052

[GRAPHIC] [TIFF OMITTED] T1269.053

[GRAPHIC] [TIFF OMITTED] T1269.054

[GRAPHIC] [TIFF OMITTED] T1269.055

[GRAPHIC] [TIFF OMITTED] T1269.056

[GRAPHIC] [TIFF OMITTED] T1269.057

[GRAPHIC] [TIFF OMITTED] T1269.058

[GRAPHIC] [TIFF OMITTED] T1269.059

[GRAPHIC] [TIFF OMITTED] T1269.060

[GRAPHIC] [TIFF OMITTED] T1269.061

[GRAPHIC] [TIFF OMITTED] T1269.062

[GRAPHIC] [TIFF OMITTED] T1269.063

[GRAPHIC] [TIFF OMITTED] T1269.064

[GRAPHIC] [TIFF OMITTED] T1269.065

[GRAPHIC] [TIFF OMITTED] T1269.066

[GRAPHIC] [TIFF OMITTED] T1269.067

[GRAPHIC] [TIFF OMITTED] T1269.068

[GRAPHIC] [TIFF OMITTED] T1269.069

[GRAPHIC] [TIFF OMITTED] T1269.070

[GRAPHIC] [TIFF OMITTED] T1269.071

[GRAPHIC] [TIFF OMITTED] T1269.072

[GRAPHIC] [TIFF OMITTED] T1269.073

[GRAPHIC] [TIFF OMITTED] T1269.074

[GRAPHIC] [TIFF OMITTED] T1269.075

[GRAPHIC] [TIFF OMITTED] T1269.076

[GRAPHIC] [TIFF OMITTED] T1269.077

[GRAPHIC] [TIFF OMITTED] T1269.078

[GRAPHIC] [TIFF OMITTED] T1269.079

[GRAPHIC] [TIFF OMITTED] T1269.080

[GRAPHIC] [TIFF OMITTED] T1269.081

[GRAPHIC] [TIFF OMITTED] T1269.082

[GRAPHIC] [TIFF OMITTED] T1269.083

[GRAPHIC] [TIFF OMITTED] T1269.084

[GRAPHIC] [TIFF OMITTED] T1269.085

[GRAPHIC] [TIFF OMITTED] T1269.086

[GRAPHIC] [TIFF OMITTED] T1269.087

[GRAPHIC] [TIFF OMITTED] T1269.088

[GRAPHIC] [TIFF OMITTED] T1269.089

[GRAPHIC] [TIFF OMITTED] T1269.090

[GRAPHIC] [TIFF OMITTED] T1269.091

[GRAPHIC] [TIFF OMITTED] T1269.092

[GRAPHIC] [TIFF OMITTED] T1269.093

[GRAPHIC] [TIFF OMITTED] T1269.094

[GRAPHIC] [TIFF OMITTED] T1269.095

[GRAPHIC] [TIFF OMITTED] T1269.096

[GRAPHIC] [TIFF OMITTED] T1269.097

[GRAPHIC] [TIFF OMITTED] T1269.285

[GRAPHIC] [TIFF OMITTED] T1269.286

[GRAPHIC] [TIFF OMITTED] T1269.287

[GRAPHIC] [TIFF OMITTED] T1269.098

[GRAPHIC] [TIFF OMITTED] T1269.099

[GRAPHIC] [TIFF OMITTED] T1269.100

[GRAPHIC] [TIFF OMITTED] T1269.101

[GRAPHIC] [TIFF OMITTED] T1269.102

[GRAPHIC] [TIFF OMITTED] T1269.103

[GRAPHIC] [TIFF OMITTED] T1269.104

[GRAPHIC] [TIFF OMITTED] T1269.105

[GRAPHIC] [TIFF OMITTED] T1269.106

[GRAPHIC] [TIFF OMITTED] T1269.107

[GRAPHIC] [TIFF OMITTED] T1269.108

[GRAPHIC] [TIFF OMITTED] T1269.109

[GRAPHIC] [TIFF OMITTED] T1269.110

[GRAPHIC] [TIFF OMITTED] T1269.111

[GRAPHIC] [TIFF OMITTED] T1269.112

[GRAPHIC] [TIFF OMITTED] T1269.113

[GRAPHIC] [TIFF OMITTED] T1269.114

[GRAPHIC] [TIFF OMITTED] T1269.115

[GRAPHIC] [TIFF OMITTED] T1269.116

[GRAPHIC] [TIFF OMITTED] T1269.117

[GRAPHIC] [TIFF OMITTED] T1269.118

[GRAPHIC] [TIFF OMITTED] T1269.119

[GRAPHIC] [TIFF OMITTED] T1269.120

[GRAPHIC] [TIFF OMITTED] T1269.121

[GRAPHIC] [TIFF OMITTED] T1269.122

[GRAPHIC] [TIFF OMITTED] T1269.123

[GRAPHIC] [TIFF OMITTED] T1269.124

[GRAPHIC] [TIFF OMITTED] T1269.125

[GRAPHIC] [TIFF OMITTED] T1269.126

[GRAPHIC] [TIFF OMITTED] T1269.127

[GRAPHIC] [TIFF OMITTED] T1269.128

[GRAPHIC] [TIFF OMITTED] T1269.129

[GRAPHIC] [TIFF OMITTED] T1269.130

[GRAPHIC] [TIFF OMITTED] T1269.131

[GRAPHIC] [TIFF OMITTED] T1269.132

[GRAPHIC] [TIFF OMITTED] T1269.133

[GRAPHIC] [TIFF OMITTED] T1269.134

[GRAPHIC] [TIFF OMITTED] T1269.135

[GRAPHIC] [TIFF OMITTED] T1269.136

[GRAPHIC] [TIFF OMITTED] T1269.137

[GRAPHIC] [TIFF OMITTED] T1269.138

[GRAPHIC] [TIFF OMITTED] T1269.139

[GRAPHIC] [TIFF OMITTED] T1269.140

[GRAPHIC] [TIFF OMITTED] T1269.141

[GRAPHIC] [TIFF OMITTED] T1269.142

[GRAPHIC] [TIFF OMITTED] T1269.143

[GRAPHIC] [TIFF OMITTED] T1269.144

[GRAPHIC] [TIFF OMITTED] T1269.145

[GRAPHIC] [TIFF OMITTED] T1269.146

[GRAPHIC] [TIFF OMITTED] T1269.147

[GRAPHIC] [TIFF OMITTED] T1269.148

[GRAPHIC] [TIFF OMITTED] T1269.149

[GRAPHIC] [TIFF OMITTED] T1269.150

[GRAPHIC] [TIFF OMITTED] T1269.151

[GRAPHIC] [TIFF OMITTED] T1269.152

[GRAPHIC] [TIFF OMITTED] T1269.153

[GRAPHIC] [TIFF OMITTED] T1269.154

[GRAPHIC] [TIFF OMITTED] T1269.155

[GRAPHIC] [TIFF OMITTED] T1269.156

[GRAPHIC] [TIFF OMITTED] T1269.157

[GRAPHIC] [TIFF OMITTED] T1269.158

[GRAPHIC] [TIFF OMITTED] T1269.159

[GRAPHIC] [TIFF OMITTED] T1269.160

[GRAPHIC] [TIFF OMITTED] T1269.161

[GRAPHIC] [TIFF OMITTED] T1269.162

[GRAPHIC] [TIFF OMITTED] T1269.163

[GRAPHIC] [TIFF OMITTED] T1269.164

[GRAPHIC] [TIFF OMITTED] T1269.165

[GRAPHIC] [TIFF OMITTED] T1269.166

[GRAPHIC] [TIFF OMITTED] T1269.167

[GRAPHIC] [TIFF OMITTED] T1269.168

[GRAPHIC] [TIFF OMITTED] T1269.169

[GRAPHIC] [TIFF OMITTED] T1269.170

[GRAPHIC] [TIFF OMITTED] T1269.171

[GRAPHIC] [TIFF OMITTED] T1269.172

[GRAPHIC] [TIFF OMITTED] T1269.173

[GRAPHIC] [TIFF OMITTED] T1269.174

[GRAPHIC] [TIFF OMITTED] T1269.175

[GRAPHIC] [TIFF OMITTED] T1269.176

[GRAPHIC] [TIFF OMITTED] T1269.177

[GRAPHIC] [TIFF OMITTED] T1269.178

[GRAPHIC] [TIFF OMITTED] T1269.179

[GRAPHIC] [TIFF OMITTED] T1269.180

[GRAPHIC] [TIFF OMITTED] T1269.181

[GRAPHIC] [TIFF OMITTED] T1269.182

[GRAPHIC] [TIFF OMITTED] T1269.183

[GRAPHIC] [TIFF OMITTED] T1269.184

[GRAPHIC] [TIFF OMITTED] T1269.185

[GRAPHIC] [TIFF OMITTED] T1269.186

[GRAPHIC] [TIFF OMITTED] T1269.187

[GRAPHIC] [TIFF OMITTED] T1269.188

[GRAPHIC] [TIFF OMITTED] T1269.189

[GRAPHIC] [TIFF OMITTED] T1269.190

[GRAPHIC] [TIFF OMITTED] T1269.191

[GRAPHIC] [TIFF OMITTED] T1269.192

[GRAPHIC] [TIFF OMITTED] T1269.193

[GRAPHIC] [TIFF OMITTED] T1269.194

[GRAPHIC] [TIFF OMITTED] T1269.195

[GRAPHIC] [TIFF OMITTED] T1269.196

[GRAPHIC] [TIFF OMITTED] T1269.197

[GRAPHIC] [TIFF OMITTED] T1269.198

[GRAPHIC] [TIFF OMITTED] T1269.199

[GRAPHIC] [TIFF OMITTED] T1269.200

[GRAPHIC] [TIFF OMITTED] T1269.201

[GRAPHIC] [TIFF OMITTED] T1269.202

[GRAPHIC] [TIFF OMITTED] T1269.203

[GRAPHIC] [TIFF OMITTED] T1269.204

[GRAPHIC] [TIFF OMITTED] T1269.205

[GRAPHIC] [TIFF OMITTED] T1269.206

[GRAPHIC] [TIFF OMITTED] T1269.207

[GRAPHIC] [TIFF OMITTED] T1269.208

[GRAPHIC] [TIFF OMITTED] T1269.209

[GRAPHIC] [TIFF OMITTED] T1269.210

[GRAPHIC] [TIFF OMITTED] T1269.211

[GRAPHIC] [TIFF OMITTED] T1269.212

[GRAPHIC] [TIFF OMITTED] T1269.213

[GRAPHIC] [TIFF OMITTED] T1269.214

[GRAPHIC] [TIFF OMITTED] T1269.215

[GRAPHIC] [TIFF OMITTED] T1269.216

[GRAPHIC] [TIFF OMITTED] T1269.217

[GRAPHIC] [TIFF OMITTED] T1269.218

[GRAPHIC] [TIFF OMITTED] T1269.219

[GRAPHIC] [TIFF OMITTED] T1269.220

[GRAPHIC] [TIFF OMITTED] T1269.221

[GRAPHIC] [TIFF OMITTED] T1269.222

[GRAPHIC] [TIFF OMITTED] T1269.223

[GRAPHIC] [TIFF OMITTED] T1269.224

[GRAPHIC] [TIFF OMITTED] T1269.225

[GRAPHIC] [TIFF OMITTED] T1269.226

[GRAPHIC] [TIFF OMITTED] T1269.227

[GRAPHIC] [TIFF OMITTED] T1269.228

[GRAPHIC] [TIFF OMITTED] T1269.229

[GRAPHIC] [TIFF OMITTED] T1269.230

[GRAPHIC] [TIFF OMITTED] T1269.231

[GRAPHIC] [TIFF OMITTED] T1269.232

[GRAPHIC] [TIFF OMITTED] T1269.233

[GRAPHIC] [TIFF OMITTED] T1269.234

[GRAPHIC] [TIFF OMITTED] T1269.235

[GRAPHIC] [TIFF OMITTED] T1269.236

[GRAPHIC] [TIFF OMITTED] T1269.237

[GRAPHIC] [TIFF OMITTED] T1269.238

[GRAPHIC] [TIFF OMITTED] T1269.239

[GRAPHIC] [TIFF OMITTED] T1269.240

[GRAPHIC] [TIFF OMITTED] T1269.241

[GRAPHIC] [TIFF OMITTED] T1269.242

[GRAPHIC] [TIFF OMITTED] T1269.243

[GRAPHIC] [TIFF OMITTED] T1269.244

[GRAPHIC] [TIFF OMITTED] T1269.245

[GRAPHIC] [TIFF OMITTED] T1269.246

[GRAPHIC] [TIFF OMITTED] T1269.247

[GRAPHIC] [TIFF OMITTED] T1269.248

[GRAPHIC] [TIFF OMITTED] T1269.249

[GRAPHIC] [TIFF OMITTED] T1269.250

[GRAPHIC] [TIFF OMITTED] T1269.251

[GRAPHIC] [TIFF OMITTED] T1269.252

[GRAPHIC] [TIFF OMITTED] T1269.253

[GRAPHIC] [TIFF OMITTED] T1269.254

[GRAPHIC] [TIFF OMITTED] T1269.255

[GRAPHIC] [TIFF OMITTED] T1269.256

[GRAPHIC] [TIFF OMITTED] T1269.257

[GRAPHIC] [TIFF OMITTED] T1269.258

[GRAPHIC] [TIFF OMITTED] T1269.259

[GRAPHIC] [TIFF OMITTED] T1269.260

[GRAPHIC] [TIFF OMITTED] T1269.261

[GRAPHIC] [TIFF OMITTED] T1269.262

[GRAPHIC] [TIFF OMITTED] T1269.263

[GRAPHIC] [TIFF OMITTED] T1269.264

[GRAPHIC] [TIFF OMITTED] T1269.265

[GRAPHIC] [TIFF OMITTED] T1269.266

[GRAPHIC] [TIFF OMITTED] T1269.267

[GRAPHIC] [TIFF OMITTED] T1269.268

[GRAPHIC] [TIFF OMITTED] T1269.269

[GRAPHIC] [TIFF OMITTED] T1269.270

[GRAPHIC] [TIFF OMITTED] T1269.271

[GRAPHIC] [TIFF OMITTED] T1269.272

[GRAPHIC] [TIFF OMITTED] T1269.273

[GRAPHIC] [TIFF OMITTED] T1269.274

[GRAPHIC] [TIFF OMITTED] T1269.275

[GRAPHIC] [TIFF OMITTED] T1269.276

[GRAPHIC] [TIFF OMITTED] T1269.277

[GRAPHIC] [TIFF OMITTED] T1269.278

[GRAPHIC] [TIFF OMITTED] T1269.279

[GRAPHIC] [TIFF OMITTED] T1269.280

[GRAPHIC] [TIFF OMITTED] T1269.281

[GRAPHIC] [TIFF OMITTED] T1269.282

[GRAPHIC] [TIFF OMITTED] T1269.283

[GRAPHIC] [TIFF OMITTED] T1269.284

                                 <all>

</pre></body></html>
